         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment

Audit Report


       EPA’s Office of Research and
       Development Could Better Use the
       Federal Managers’ Financial Integrity Act
       to Improve Operations

       Report No. 09-P-0232

       September 15, 2009
Report Contributors:                              Patrick Gilbride
                                                  Erin Barnes-Weaver
                                                  Karen L. Hamilton
                                                  Bryan Holtrop
                                                  Alicia Mariscal
                                                  Mary Anne Strasser




Abbreviations

BOSC           Board of Scientific Counselors
EPA            U.S. Environmental Protection Agency
FMFIA          Federal Managers’ Financial Integrity Act
FY             Fiscal Year
GAO            Government Accountability Office
GPRA           Government Performance and Results Act
IRIS           Integrated Risk Information System
NHEERL         National Health and Environmental Effects Research Laboratory
OCFO           Office of the Chief Financial Officer
OIG            Office of Inspector General
OMB            Office of Management and Budget
ORD            Office of Research and Development
PART           Program Assessment Rating Tool




Cover photo:     A photo montage of EPA Office of Research and Development National
                 Health and Environmental Effects Research Laboratory facilities
                 geographically dispersed across the United States (EPA photos).
                       U.S. Environmental Protection Agency                                               09-P-0232
                                                                                                  September 15, 2009
                       Office of Inspector General


                       At a Glance
                                                                           Catalyst for Improving the Environment


Why We Did This Review            EPA’s Office of Research and Development Could
We conducted this audit to
                                  Better Use the Federal Managers’ Financial Integrity
determine whether the U.S.        Act to Improve Operations
Environmental Protection
Agency (EPA) Office of             What We Found
Research and Development
(ORD) fully integrated the        ORD’s management integrity program is inconsistent with Agency FMFIA
Federal Managers’ Financial       guidance. ORD approaches FMFIA as an administrative reporting activity rather
Integrity Act (FMFIA) into        than an opportunity to evaluate and report on research program performance. As
program operations. We            a result, ORD has not:
asked whether ORD has a
systematic strategy to                •   Conducted a comprehensive risk assessment,
establish, review, and monitor        •   Included National Program Directors in the FMFIA process,
internal controls, and what           •   Developed and implemented a strategy to establish and evaluate the
ORD’s strategy should contain             effectiveness of internal controls over research programs,
to account for risks in meeting       •   Provided FMFIA training to managers and staff, and
program goals.                        •   Included relevant risk and program performance information in assurance
                                          letters.
Background
                                  EPA Order 1000.24 requires all organizations to systematically review and assess
FMFIA requires federal            the effectiveness of internal controls consistent with GAO internal control
managers to improve the           standards. The Order gives program managers flexibility in designing review
accountability and                strategies. While ORD’s largest lab, the National Health and Environmental
effectiveness of federal          Effects Research Laboratory (NHEERL), informally identifies program risks,
programs by establishing,         neither ORD nor NHEERL conducts internal control risk assessments on which to
assessing, correcting, and        base a program review strategy. Applying FMFIA as intended would help EPA
reporting on internal control.    achieve its mission and program results through improved accountability.
FMFIA also requires federal
managers to annually evaluate     ORD’s Administrative Efficiencies Project management integrity workgroup has
their agencies' compliance        initiated actions that we believe will address our findings, such as developing a
with Government                   draft multi-year review strategy. In developing its new strategy, ORD should
Accountability Office (GAO)       include programmatic elements, a training plan, pertinent results from peer
internal control standards.       reviews, and best practices to ensure more effective FMFIA implementation.

For further information,           What We Recommend
contact our Office of
Congressional, Public Affairs
and Management at                 We recommend that ORD (1) conduct a risk assessment using GAO standards and
(202) 566-2391.                   develop a comprehensive risk-based program review strategy; (2) develop
                                  comprehensive, tiered FMFIA training for managers and staff; and (3) revise its
To view the full report,          management integrity program to include programmatic operations. ORD agreed
click on the following link:
www.epa.gov/oig/reports/2009/     with our recommendations and has initiated corrective actions that we believe
20090915-09-P-0232.pdf            address the intent of our recommendations.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL



                                       September 15, 2009

MEMORANDUM

SUBJECT:               EPA’s Office of Research and Development Could Better Use the
                       Federal Managers’ Financial Integrity Act to Improve Operations
                       Report No. 09-P-0232


FROM:                  Melissa M. Heist
                       Assistant Inspector General for Audits

TO:                    Lek Kadeli
                       Acting Assistant Administrator
                       Office of Research and Development


The Office of Inspector General (OIG) of the U.S. Environmental Protection Agency (EPA)
conducted this report on the subject audit. This report contains findings that describe problems
we identified and corrective actions we recommend. This report represents our opinion and does
not necessarily represent the final EPA position. EPA managers will make final determinations
on matters in this report in accordance with established audit resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $515,790.

Action Required

On September 4, 2009, your office provided comments to our report that included a corrective
action plan with milestone dates. We believe your planned corrective actions address the intent
of each of our recommendations. As such, we plan to close this assignment upon issuance of this
final report. We have no objections to the further release of this report to the public. This report
will be available at http://www.epa.gov/oig.

We appreciate the efforts of your staff in working with us during the course of our audit. If you
or your staff has any questions regarding this report, please contact me at (202) 566-0899 or
heist.melissa@epa.gov; or Patrick Gilbride, Director, Risk and Program Performance Issues, at
(303) 312-6969 or gilbride.patrick@epa.gov.
EPA’s Office of Research and Development Could Better Use the                                                                 09-P-0232
Federal Managers’ Financial Integrity Act to Improve Operations



                                    Table of Contents

Chapters
   1   Introduction .................................................................................................................      1

         Purpose ......................................................................................................................   1
         Background ................................................................................................................      1
         Noteworthy Achievements..........................................................................................                4
         Scope and Methodology ............................................................................................               5

   2   Opportunities Exist for ORD to Better Use the
       FMFIA Process to Improve Programmatic Operations............................................                                       6

         Management Integrity Program Inconsistent with FMFIA Guidance ..........................                                          6
         Management Integrity Strategy Should Include Program Elements...........................                                         13
         Conclusion .................................................................................................................     16
         Recommendations .....................................................................................................            16
         Agency Comments and OIG Evaluation.....................................................................                          17

   Status of Recommendations and Potential Monetary Benefits.................................... 18



Appendices
   A     Organization of EPA ORD........................................................................................ 19

   B     Details on Scope and Methodology........................................................................ 21

   C     Agency Response to Draft Report.......................................................................... 23

   D     Distribution ............................................................................................................... 28
                                                                                   09-P-0232




                                Chapter 1
                                 Introduction

Purpose
          The Office of Inspector General (OIG) reviewed implementation of the Federal
          Managers’ Financial Integrity Act (FMFIA) within the Office of Research and
          Development (ORD), the scientific research arm of the U.S. Environmental
          Protection Agency (EPA). We sought to determine whether ORD fully integrated
          FMFIA into programmatic operations. We examined ORD using its largest lab,
          the National Health and Environmental Effects Research Laboratory (NHEERL),
          as our example. Our objectives were to determine:

          •   Whether ORD has a systematic strategy to establish, review, and monitor
              internal controls.
          •   What ORD's internal control strategy should contain to account for risks in
              meeting program goals.

Background
          EPA’s Office of Research and Development

          ORD is EPA's lead office for the production, review, and integration of scientific
          and technical knowledge into environmental protection policies and regulations.
          ORD has seven laboratories and centers across the country, with ORD
          headquarters in Washington, DC, and main research facilities in Ohio and North
          Carolina. NHEERL is ORD’s largest individual laboratory, accounting for
          21 percent of ORD’s Fiscal Year (FY) 2008 budget and 33 percent of its
          authorized full-time staff. NHEERL has division and field office laboratories in
          eight locations and ecological environments across the country.

          To provide the leadership to accomplish ORD’s strategic goals, ORD created an
          Executive Council, consisting of senior management, to make corporate
          decisions. ORD instituted a strategic multi-year planning process to guide the
          direction of ORD’s research to focus on EPA's highest priority science needs.
          National Program Directors lead development of multi-year plans with
          involvement by staff and managers. There are no direct lines of authority
          between National Program Directors and lab, center, and office directors as both
          positions report to the Assistant Administrator. ORD confirms the relevancy and
          credibility of its science through program reviews by the Board of Scientific
          Counselors (BOSC). ORD aligned BOSC reviews to meet the structure of
          reviews conducted under the Office of Management and Budget (OMB) Program
          Assessment Rating Tool (PART).



                                           1
                                                                               09-P-0232


ORD issued a policy in November 2006 on how ORD implements FMFIA.
ORD’s Assistant Administrator has responsibility for implementing FMFIA.
Additional responsibilities lie with lab and center directors and deputy directors.
An ORD Management Integrity Advisor coordinates activities such as the
assurance letter process. The Advisor works with designated Management
Integrity Coordinators within ORD’s seven labs and centers. According to ORD’s
policy, National Program Directors do not have a role in the management integrity
process. See Appendix A for more details on ORD’s organizational structure.

Management Integrity Guidance

FMFIA requires federal managers to improve the accountability and
effectiveness of federal programs and operations by establishing, assessing,
correcting, and reporting on internal control. Federal managers must also
develop and maintain internal control to achieve: (1) effective and efficient
operations; (2) reliable financial reporting; and (3) compliance with applicable
laws and regulations per OMB Circular A-123, Management’s Responsibility
for Internal Control (revised). Effective internal control is a key factor in
achieving agency missions and program results.

The Federal Government has implemented several initiatives, such as the
Government Performance and Results Act of 1993 (GPRA) and PART, to
improve program management. Activities conducted as part of these initiatives
support an agency’s overall internal control framework. Figure 1.1 illustrates
how FMFIA serves as an umbrella under which agencies should coordinate
internal control efforts.
Figure 1.1: FMFIA Internal Control Framework




Source: EPA training, EPA Internal Control and Management Integrity: Make It
Second Nature, issued (via EPA’s Intranet) on May 28, 2008 (slide 11 of 21).



                                      2
                                                                                   09-P-0232


FMFIA requires federal managers to annually evaluate their agency's compliance
with Government Accountability Office (GAO) Standards for Internal Control in
the Federal Government, shown in Table 1.1, and issue a statement indicating full
compliance or noncompliance. The standards provide the overall framework for
establishing and maintaining internal controls, and for identifying and addressing
major performance and management challenges and areas at greatest risk of fraud,
waste, abuse, and mismanagement. The standards comprise a major part of
managing an organization.

Table 1.1: GAO’s Standards for Internal Control in the Federal Government
      Control       This standard establishes and maintains an environment throughout
   Environment      the organization that sets a positive and supporting attitude toward
                    internal control and conscientious management. This includes
                    establishing goals, objectives, and performance measures at the entity
                    and activity level.
       Risk         Once the goals, objectives, and measures have been defined, the risks
   Assessment       that could impede efficiently and effectively achieving those objectives
                    are identified. This includes assessing risks the agency faces from
                    both internal and external sources. Risk assessment includes
                    identifying and analyzing risks associated with achieving objectives
                    defined in strategic and annual performance plans developed under
                    GPRA, and form a basis for determining how to manage risks.
                    Management needs to comprehensively identify risks and should
                    consider all significant interactions between the entity and other parties
                    as well as internal factors at both the entity-wide and activity levels.
      Control       These are the policies, procedures, techniques, and mechanisms that
     Activities     implement management’s direction to achieving goals. Internal control
                    activities help ensure that management’s directives are carried out.
 Information and This standard includes data and information (performance and
 Communications financial) to determine whether the organization meets its goals and
                    objectives and maintains accountability over resources.
    Monitoring      Internal control monitoring should assess the quality of performance
                    over time and ensure that audits and other review findings are
                    promptly resolved.
Source: OIG’s Summary of GAO’s Standards for Internal Control in the Federal Government,
GAO/AIMD-00-21.3.1 (November 1999).

To implement FMFIA and OMB Circular A-123, EPA issued Order 1000.24,
Management’s Responsibility for Internal Control. The Order:

•   Prescribes policies, procedures, and standards for internal controls at EPA;
•   Outlines Agency senior managers’ roles and responsibilities for developing,
    implementing, assessing, documenting, improving, and reporting on internal
    controls;
•   Incorporates specific requirements for assessing internal controls over
    financial reporting; and
•   Provides tools to help managers monitor both overall program progress and
    the effectiveness of day-to-day operations.




                                     3
                                                                                 09-P-0232


         In accordance with the Order, the Office of the Chief Financial Officer (OCFO)
         issues annual guidance to program and regional offices on complying with
         FMFIA. This guidance includes a reporting template with specific instructions
         for completing assurance letters. Assurance letters provide the results of the
         internal control assessment and an overall statement to the Administrator on the
         adequacy of controls for the organization. In 2008 OCFO also developed an
         Intranet training to increase understanding of internal controls, titled EPA
         Awareness Training for Internal Controls and Management Integrity, although
         OCFO did not mandate that all EPA staff complete the course. OCFO annually
         collects all program and regional office assurance letters and compiles a single
         draft assurance letter for the Administrator to review and sign.

         EPA’s Order also requires managers to develop and implement a strategy that
         defines how they use sources of program management information to provide the
         basis for their annual assurance letters. The systematic review strategy should be
         consistent with and integrate Agency-wide processes used to develop and report
         on program performance measures and results required under GPRA. Examples
         of sources of program management information include: OIG and GAO reports,
         internal and external program evaluations, audits and reviews conducted under the
         Chief Financial Officers Act and GPRA, PART, and other reviews. The Order
         recommends that program managers use GAO’s five internal control standards
         when developing a review strategy as the basis for determining the need for and
         design of an internal control and how well it functions.

         EPA also issued a 1996 publication, Management Integrity at EPA - A Manager’s
         “How To” Guide for Program Reviews: Seeing the Forest and the Trees. The
         guide introduced the Agency’s 10 management integrity principles and noted that
         managers often miss the essence of internal controls and FMFIA:

                In complying with FMFIA, many Federal managers historically
                never saw the “Big Picture.” Most focused on filling out
                checklists and performing other routine compliance tests, rather
                than considering management controls in light of broader program
                issues and EPA’s overall mission. In short, they got lost in the
                trees and never saw the forest!

Noteworthy Achievements
         ORD re-engineered its management integrity function through its Administrative
         Efficiencies Project. This effort focused on improving administrative and
         financial internal controls, including how ORD might conduct a formal risk-based
         assessment of those controls. This effort’s management integrity workgroup is
         also considering a separate “scientific” or programmatic track for assessing
         internal control.




                                          4
                                                                                                   09-P-0232


                ORD engaged the National Academy of Sciences to evaluate its research program
                effectiveness in a report, Evaluating Research Efficiency in the U.S.
                Environmental Protection Agency (published in 2008), which significantly altered
                the dialogue and approach to efficiency measurement.

                ORD and NHEERL undergo many external peer reviews to maintain a high level
                of credibility. The Science Advisory Board reviews the quality and relevance of
                scientific and technical information used or proposed as the basis for Agency
                regulations. BOSC evaluates and reviews scientific research programs, plans, and
                laboratories (and related management practices) and recommends improvement
                actions. Since FY 2008, NHEERL has conducted management systems reviews
                in lieu of traditional divisional reviews as a cost saving effort.

Scope and Methodology

                We conducted our audit from July 2008 through April 2009 in accordance with
                generally accepted government auditing standards. Those standards require that
                we plan and perform the audit to obtain sufficient, appropriate evidence to
                provide a reasonable basis for our findings and conclusions based on our audit
                objectives.1 We believe that the evidence obtained provides a reasonable basis for
                our findings and conclusions based on our audit objectives.

                We focused our evaluation on ORD’s headquarters office in Washington, DC, and
                NHEERL facilities located in Raleigh, North Carolina, and Corvallis and
                Newport, Oregon. We reviewed and analyzed EPA and ORD management
                integrity policies, procedures, and FMFIA guidance; ORD’s budget and
                expenditure data; and FYs 2007 and 2008 FMFIA assurance letters. We
                interviewed ORD and NHEERL personnel at various levels of responsibility.
                We conducted site visits to NHEERL and its Western Ecology Division, including
                tours of several laboratories. We benchmarked risk assessment methods used by
                others in the public sector, as well as the FMFIA process at eight other federal
                agencies. We reviewed NHEERL-related internal/external peer reviews to
                determine the extent to which they addressed internal controls. Appendix B
                provides additional information on our scope and methodology.




1
  In the course of performing our field work, we identified findings applicable outside of ORD-NHEERL. In
February and March 2009 we expanded our field work to include reviewing assurance letters and FMFIA processes
in four regions and two program offices. In August 2009, we issued a report to OCFO on the Agency’s management
integrity program, summarizing examples from the regions and program offices we reviewed.


                                                      5
                                                                                   09-P-0232




                                Chapter 2
    Opportunities Exist for ORD to Better Use the
 FMFIA Process to Improve Programmatic Operations
          ORD’s management integrity program is inconsistent with Agency FMFIA
          guidance. Currently, ORD approaches FMFIA as an administrative reporting
          activity rather than an opportunity to evaluate and report on research program
          performance. As a result, ORD has not:

             •   Conducted a comprehensive risk assessment,
             •   Included National Program Directors in the FMFIA process,
             •   Developed and implemented a strategy to establish and evaluate the
                 effectiveness of internal controls over research programs,
             •   Provided FMFIA training to managers and staff to assess program
                 performance, and
             •   Included relevant risk and program performance information in assurance
                 letters.

          EPA Order 1000.24 requires all organizations to systematically review and assess
          the effectiveness of internal controls consistent with GAO internal control
          standards. The Order gives program managers flexibility in designing review
          strategies. While NHEERL, ORD’s largest lab, informally identifies program
          risks, neither ORD nor NHEERL conducts internal control risk assessments on
          which to base a program review strategy. Applying FMFIA as intended would
          help EPA achieve its mission and program results through improved
          accountability.

Management Integrity Program Inconsistent with FMFIA Guidance
          ORD Has Not Conducted a Comprehensive Internal Control
          Risk Assessment

          ORD has not conducted a formal risk assessment for identifying and analyzing
          risks for possible effects in program operations. OMB Circular A-123 states that
          managers should perform risk assessments to identify significant areas within
          which to place or enhance internal control. The Circular describes risk
          assessment as a critical step in the process to determine the extent of controls.

          While ORD has not assessed risk, NHEERL and its Western Ecology Division
          have informally assessed their program risks, as shown in Table 2.1.




                                           6
                                                                               09-P-0232


Table 2.1: Program Risks
                                                                               Western
                                                                               Ecology
                        Identified Program Risks                    NHEERL     Division
 1.   Inability to quickly respond to changing priorities.            X           X
 2.   Imbalance of breadth and depth in research program.             X           X
 3.   Difficulty in building/maintaining research collaborations.     X           X
 4.   Inability to meet commitments in face of declining              X           X
      resources.
 5.   Inadequate safeguards to ensure that Agency decisions are       X              X
      supported by the highest quality science.
 6.   Unclear priorities.                                                            X
 7.   Mismatch of skill mix.                                                         X
 8.   Difficulty in building and maintaining partnerships with                       X
      program offices and regions.
Source: NHEERL and Western Ecology Division presentations to OIG in November 2008.


NHEERL conducts quality assurance, peer review, and accountability reviews
that it believes address three of the five risks identified. However, NHEERL
identified these risks based on management’s judgment subsequent to initiating
these reviews and did not assess the effectiveness of internal controls.

ORD Does Not Include National Program Directors in the FMFIA
Process

ORD’s process to evaluate risks and assign priority does not involve National
Program Directors. These directors lead development of ORD’s multi-year plans
that tie to the strategic plan and EPA’s mission, so internal control risk
assessments should focus on impediments to multi-year plans. Some of the
directors we interviewed said that individual lab research priorities did not
necessarily align with multi-year plan priorities. Further, even though directors
play a significant role in directing and ensuring that ORD achieves its mission,
ORD has not involved them in evaluating internal controls, implementing the
management integrity program, or preparing FMFIA assurance letters.

Lab and center directors told us ORD should involve National Program Directors
in the FMFIA process but were unsure how to do so given ORD’s matrix structure.
This structure separates program performance aspects such as PART and GPRA
from FMFIA and provides no clear link between required annual reports. EPA
Order 1000.24 addresses program managers’ responsibility for internal controls,
including GPRA performance measures. The Order also specifies that any review
strategy be consistent with Agency processes for GPRA reporting.

ORD’s organizational structure sets boundaries for what National Program
Directors can do in regards to implementing research assigned to lab and center
directors. While National Program Directors develop research plans, reviews, and
budgets, they do not oversee day-to-day operations including spending and
staffing. Without additional involvement, National Program Directors cannot
evaluate a research program’s internal controls. In our interviews, directors


                                     7
                                                                         09-P-0232


described difficulties encountered while managing their research programs, such
as limited access to information on funding spent against the budget and staff time
charges to research programs. They also indicated they could benefit from
improved communication and coordination with labs, centers, and offices to
ensure consensus on prioritizing, implementing, and managing research programs.

ORD Has Not Developed a Program Review Strategy

ORD has not developed a strategy to systematically review and assess the
effectiveness of internal control for program operations. EPA Order 1000.24
states that program managers should develop a strategy for systematically
reviewing and assessing the effectiveness of internal controls; detecting
weaknesses and deficiencies; and providing a sound, documented basis for the
assurance letter to the Administrator. OCFO’s FY 2008 management integrity
guidance requires that annual assurance letters describe the organization's review
strategy for assessing how well internal controls over program operations
(guidance, procedures, and policies) protect against fraud, waste, abuse, and
mismanagement.

ORD managers annually require labs and centers to design a review strategy that
meets program needs and conduct internal control reviews. However we did not
find any evidence that these activities took place for research programs. Our
interviews with ORD and NHEERL staff, as well as our review of ORD’s and
NHEERL’s FY 2008 assurance letters, confirmed this. ORD states in its FY 2008
assurance letter that “ORD conducted more than 38 management reviews of the
following areas: extramural (assistance agreements, interagency agreements,
contracts, simplified acquisitions), purchase cards, property, funds control and
flexiplace.” Management reviews focused on administrative and financial
activities, not program operations.

ORD managers agreed that their FY 2008 assurance letter did not discuss a
program review strategy or describe how it reviewed principal research programs.
ORD stated it believed “Examples exist in the assurance letter of how ORD
approached the review of some of its programs, for example the approach for
addressing the Agency’s (and ORD’s) Biofuels Strategy.” However ORD did not
base this process on a comprehensive risk assessment, did not report on internal
control effectiveness, and may not have provided a sound basis for the Assistant
Administrator to assert compliance with FMFIA.

In August 2008, ORD organized a management integrity workgroup as part of its
Administrative Efficiencies Project. ORD charged this workgroup with
developing a plan for conducting a management integrity line of business as an
ORD-wide function. ORD said the workgroup will coordinate various programs
that support management integrity into standard ORD operating principles. We
reviewed ORD’s draft strategy and do not believe that it addresses programmatic
controls.



                                 8
                                                                                                   09-P-0232


                ORD Relies on Limited OCFO Guidance

                ORD relies on OCFO guidance that does not focus on program operations for
                reporting internal controls. Further, ORD did not change the composition of its
                assurance letter between 2007 and 2008 to reflect changes in OCFO guidance.
                OCFO’s FY 2008 guidance:

                     •   Required a more rigorous review of the Agency’s internal controls against
                         GAO’s Standards for Internal Control in the Federal Government.
                     •   Required offices to document their approach to programmatic internal
                         control reviews in assurance letters.
                     •   Included an Internal Control Evaluation Checklist as an attachment to
                         provide a basis on which to evaluate internal controls and to use the
                         checklist to assess the effectiveness of programmatic internal controls.

                OCFO believed its FY 2008 guidance improved reporting on internal control
                effectiveness of program operations. However, the OCFO letter template focused
                on administrative and financial reporting.2 ORD did not follow any strategy or
                report additional information on internal controls beyond what OCFO specified in
                its template.

                ORD staff told us they found OCFO’s 2008 guidance confusing in several areas.
                For example, staff could not discern whether ORD should report the occurrence
                or results of program reviews. Staff also said OCFO’s guidance was not specific
                and did not always tie in to EPA Order 1000.24.

                ORD’s lab and center Management Integrity Coordinators rely on FMFIA
                guidance disseminated by ORD after it receives OCFO’s annual guidance.
                However, ORD did not disseminate all guidance it received from OCFO in
                FY 2008. ORD did not disseminate the checklist until OCFO initiated its
                FY 2009 assurance letter process; 83 percent of Management Integrity
                Coordinators interviewed said they had not seen the checklist before this year.
                We also noted that OCFO’s FY 2008 guidance and ORD’s assurance letter
                contained the subject heading Internal Control Review Strategy while NHEERL’s
                assurance letter did not, because the guidance ORD provided to labs and centers
                did not include that subject heading as a reporting requirement.

                In addition, we found that ORD’s 2006 Management Integrity Policy, a
                supplement to EPA’s guidance, was inconsistent with FMFIA guidance because it
                did not cite GAO’s Standards for Internal Control in the Federal Government.
                The policy also referenced out-of-date information, such as older versions of both
                OMB A-123 and EPA Order 1000.24. ORD staff indicated that its Management
                Integrity Workgroup plans to revise ORD’s policy to include updated guidance.


2
 We issued a report to OCFO in August 2009 describing our concerns on the administrative focus of FMFIA
guidance.


                                                      9
                                                                                   09-P-0232


ORD Managers and Staff Need Additional Training on Internal
Control Standards

ORD personnel gain knowledge of FMFIA and internal controls largely through
on-the-job-training and did not receive sufficient additional training on evaluating
internal controls. Inadequate understanding of the internal control process
resulted in ORD relegating FMFIA to a yearly administrative reporting activity.
ORD managers and staff responsible for FMFIA receive no training on GAO’s
five internal control standards or how to ensure research programs meet standards.
GAO’s standards provide the overall framework for establishing and maintaining
internal control, and for identifying and addressing major performance and
management challenges. None of ORD’s lab and center directors could say that
their assurance letters addressed internal control standards. Three of seven
Management Integrity Coordinators said they addressed all five standards
throughout their letters while the remaining four acknowledged that their letters
did not do so. Only four of seven coordinators were aware of GAO’s standards,
while only two of seven were familiar with GAO’s evaluation tool/checklist.
Figure 2.1 illustrates coordinators’ awareness of management integrity guidance.

Figure 2.1: Awareness by Management Integrity Coordinators of FMFIA Guidance



                  EPA "How To" Guide


                   GAO Tool/Checklist
 FMFIA Guidance




                  GAO Internal Control
                     Standards

                      EPA Awareness
                         Training

                  OMB Circular A-123


                   EPA Order 1000.24

                                     0%    20%       40%       60%           80%     100%

                                          Percentage of MICs Aware of Guidance

Source: OIG analysis of interviews with Management Integrity Coordinators.

Managers and staff interviewed said they did not consider results of program
reviews, such as GPRA performance measures, PART, and peer reviews relevant
for FMFIA purposes. However, FMFIA guidance, including OMB Circular
A-123, emphasizes the importance of integrating these reviews into the FMFIA
process. Several coordinators interviewed said their FMFIA reporting activities
focused entirely on administrative activities with no linkage between program
review information and FMFIA. All of ORD’s coordinators – and several
managers – said that additional training on FMFIA would be helpful. One ORD



                                           10
                                                                          09-P-0232


manager suggested that EPA develop tiered training, with one tier for senior
managers on understanding controls and FMFIA and another for management
integrity staff on the "nuts and bolts" of implementing and reporting on controls.
We believe ORD’s FMFIA training should also include coverage of all key
guidance documents, such as EPA Order 1000.24.

ORD managers agree on the need to conduct internal control training at all levels
within the organization. However, ORD’s Draft Multi-Year Program Review
Strategy did not elaborate on a specific training plan. ORD states that it will
periodically train all key personnel involved in the internal control process and
work with the Agency to identify appropriate training for staff. ORD should
identify areas of strength and weakness among its staff and, in turn, tailor its
training around those needs. Coordinators interviewed suggested ORD develop
training that includes:

   •   Internal controls,
   •   An ORD-specific template for reporting,
   •   Best practices/lessons learned,
   •   Risk assessment requirements, and
   •   Training unique to managers on their FMFIA responsibilities and internal
       controls.

Without comprehensive and up-to-date training, personnel may not be qualified to
assess performance of programmatic operations.

Assurance Letters Omitted Program Risk and Performance
Information

ORD, NHEERL, and the Office of Science Policy’s FY 2008 assurance letters did
not document results of relevant program reviews conducted by organizations
external to ORD. EPA Order 1000.24 provides several examples of program
management information to incorporate into assurance letters, including
management reviews, OIG and GAO reports, program evaluations, and other
audits and reviews such as GPRA. Examples of program risk and performance
information omitted from assurance letters follow in Table 2.2.




                                 11
                                                                                                  09-P-0232


                Table 2.2: Examples of Information Omitted from Assurance Letters
                  ORD
                  • ORD’s FMFIA strategy and FY 2008 assurance letter did not address how ORD
                     developed and implemented performance goals and measures to comply with
                     GPRA and PART requirements. ORD described this internal control system in its
                     “Accountability Handbook for Performance Measurement” (dated August 2007) and
                     in Section 5.2 (“ORD Performance Measure Tracking”) of ORD’s Policies and
                     Procedures Manual.
                  • ORD’s letter did not discuss results of BOSC reviews on four research programs
                     and one center in FY 2007 and 2008.3 Also, ORD’s 2008 assurance letter did not
                     mention completed NHEERL-relevant PART and BOSC reviews for two research
                     programs.4 ORD said it incorporates BOSC review results “into ORD management
                     decision-making and into the criteria used for budget decisions and related
                     documents." Several of these BOSC reviews addressed program management
                     issues and could serve to demonstrate ORD's compliance with two GAO internal
                     control standards (control activities and monitoring).
                  • ORD's letter did not mention GAO’s April and May 2008 testimonial reports where
                     GAO found that ORD’s revised Integrated Risk Information System (IRIS) process
                     did not respond to GAO’s March 2008 report recommendations and further
                     jeopardized IRIS database viability.5 In recommending that EPA not consider IRIS
                     as a management challenge (in an attachment to its 2008 letter), ORD cited its
                     revised IRIS process but did not elaborate on GAO’s findings. ORD told us it
                     disagreed when GAO first identified IRIS as a management challenge. However,
                     ORD now agrees since GAO listed IRIS on its High Risk report.
                  • ORD only included performance measures on IRIS and the Human Health Risk
                     Assessment program in its FY 2008 letter, excluding all other performance
                     measures. ORD said OCFO’s FY 2008 guidance did not require reporting on
                     performance measures. However, the first page of the cover memo accompanying
                     OCFO’s FY 2008 guidance stated explicitly that FMFIA requires the Administrator
                     to report on internal controls over programs, including performance measures.
                     OMB Circular A-123 also specifies that agencies consider GPRA and PART
                     requirements as part of their internal control structure. Consistent with this
                     Circular, EPA Order 1000.24 specifies this same requirement.
                  • ORD’s letter did not mention results of a National Academy of Sciences report
                     issued in February 2008, Evaluating Research Efficiency in the U.S. Environmental
                     Protection Agency, and NHEERL divisional peer reviews. In its FY 2008
                     assurance letter, NHEERL described completing the Atlantic Ecology Division peer
                     review and responding to the Mid-Continent Ecology Division’s peer review. ORD
                     excluded these significant NHEERL items from the FY 2008 ORD assurance letter.
                     Our review of the Atlantic Ecology Division peer review report determined that it
                     addressed three internal control standards (risk assessment, control activities, and
                     monitoring).




3
  BOSC reviewed the Science and Technology for Sustainability Research Program, Human Health Risk
Assessment Research Program, Particulate Matter/Ozone Research Program (mid-cycle), Endocrine Disrupting
Chemicals Research Program (mid-cycle), and the National Center for Environmental Research.
4
  These included the Ecological and Safe Pesticide/Safe Product Research Programs.
5
  IRIS provides toxic chemical assessment information to EPA’s stakeholders.


                                                     12
                                                                                            09-P-0232


           NHEERL and Office of Science Policy
           • NHEERL did not identify results of relevant BOSC reviews (reports issued in July
              and August 2007) in which NHEERL’s Gulf Ecology Division participated. Our
              analysis found that these reviews identified issues relating to four internal control
              standards and all five of NHEERL's self-identified risks.
           • NHEERL did not discuss the contents or results of a detailed Atlantic Ecology
              Division peer review in its FY 2008 letter. NHEERL disclosed that it had completed
              a peer review and that the committee issued a written report “which identifies
              strengths and challenges and offers recommendations for improvement.”
           • ORD’s Office of Science Policy, which manages BOSC efforts, listed in its FY 2008
              assurance letter final reports completed for five research programs but did not
              discuss report contents or results. The office included information on review
              accomplishments, but this information only described the report title, procedural
              activity (e.g., meeting, conference call), and final report. Additionally, its assurance
              letter did not discuss a review strategy to systematically evaluate internal controls.
          Source: OIG analysis.

          ORD managers said the assurance letter “must attest to the soundness of internal
          controls for programs, functions, and financial activities” for labs and centers.
          Completing a risk assessment and developing a review strategy would support
          decisions regarding the relevance of these reviews and, as a result, determining
          whether to include review results in the assurance letter. However, because they
          did not conduct a formal risk assessment nor follow a systematic review strategy,
          ORD, NHEERL, and the Office of Science Policy omitted from assurance letters
          external review results pertinent to management integrity. We found review
          results directly addressed GAO’s five internal control standards. Such omissions
          could impact the accuracy of information ORD reports in its assurance letters, and
          may render invalid any assurance ORD makes as to the integrity of its programs.

Management Integrity Strategy Should Include Program Elements
          As noted above, ORD has not developed a program review strategy to
          systematically review and assess the effectiveness of internal control as required
          by EPA Order 1000.24. ORD viewed FMFIA as an administrative exercise and
          did not consider external program review results as relevant to its management
          integrity approach. ORD has taken recent steps to develop a draft Multi-Year
          Program Review Strategy – a requirement of OCFO’s 2009 FMFIA guidance.
          We commend ORD for developing a formal strategy and encourage ORD to
          include specific details on how it plans to address strategy recommendations in
          EPA Order 1000.24. In addition, per our second objective, we believe ORD’s
          strategy should also include information on its extensive peer review program as
          well as best practices we identified from other public sources.

          External Peer Program Reviews Conducted by ORD and NHEERL

          ORD’s Strategy should explain how it plans to use external program reviews
          conducted by the Science Advisory Board, BOSC, peers, GAO, and OIG as
          program management elements required by EPA Order 1000.24. ORD initiates


                                              13
                                                                                      09-P-0232


program reviews at several levels within its complex matrix structure. ORD’s
strategy should include a schedule for reviews and describe how ORD will use
and report review results as part of its FMFIA process. Results of these reviews,
in addition to other program evaluations, should form the basis for any assertions
ORD makes in its annual assurance letter to the Administrator. ORD should also
evaluate the scope and frequency of external reviews. The potential impact of any
risk should include both quantitative and qualitative costs:

      •     Quantitative costs include the cost of property, equipment, or inventory,
            cash dollar loss, and damage and repair costs.
      •     Qualitative costs include loss of public trust, loss of future funding,
            increased legislation, violation of laws, not achieving organizational goals,
            and decreased credibility. Such costs, while more difficult to assess, are
            equally important.

We found that ORD identified completed peer reviews but did not discuss review
results. Figure 2.2 lists Science Advisory Board, BOSC, and divisional NHEERL
peer reviews.
Figure 2.2: Number of ORD Peer Reviews for 2007-2009


                 1        *
     2009                                              7
                                                                     10



                 1        *
     2008                             4
                                                       7



                              3
     2007                                                      8
                                            5


            0         2           4              6         8        10        12

                                      SAB       BOSC   NHEERL

    * Note: ORD suspended its divisional peer review program in 2008 and, instead,
    initiated a pilot Management Systems Review (first in the Gulf Ecology Division
    in 2008, and planned for the Mid-Continent Ecology Division in September 2009).
    Source: Data provided by ORD during the course of field work.

We analyzed select program reviews and identified internal control aspects in
questions reviewers asked as well as review results and recommendations. While
each review had different objectives, we found that several reports addressed, to
varying degrees, GAO’s standards. Some examples include:

•     In its mid-cycle review of the Global Change Research Program in September
      2008, BOSC asked, “How responsive has the Global Change Research Program



                                            14
                                                                             09-P-0232


    been to the recommendations made in the April 2006 BOSC program review
    report?” This question addresses the “monitoring” internal control standard.

•   In its review of the Human Health Risk Assessment Program in April 2008,
    BOSC asked, “How consistent are the Long Term Goals of the Program with
    achieving the Agency’s strategic plan and the Human Health Risk
    Assessment’s MYP (Multi-Year Plan)?” This question is similar to several
    items GAO included in its Internal Control Management and Evaluation Tool
    under the “risk assessment” heading.

A risked-based strategy that prioritizes systematic reviews can help determine
whether there are redundancies in a program and the programs at greatest risk are
being reviewed. ORD managers acknowledged they may have redundancies in
the peer reviews they conduct, and BOSC came to the same conclusion in a
report. In addition to the burden of being over-reviewed, ORD does not know if it
focuses reviews on the highest risk areas that warrant most attention.

Best Practices ORD Could Implement

We identified several best practices on management integrity used at public
organizations that ORD could use (with modifications) in its strategy:

    •   The State of Minnesota’s risk management plan provides an example of
        steps that any risk assessment methodology should include. This plan,
        shown in Table 2.3, becomes the overall basis for developing, evaluating,
        and maintaining internal control.

        Table 2.3: Elements of Minnesota’s Risk Assessment Methodology
         1. Identify risk.
         2. Categorize risk.
         3. Assess likelihood and effect.
         4. Prioritize risks.
         5. Develop a plan to reduce risks (response).
         6. Document dates and actions taken to reduce risks.
         7. Establish systematic reviews and track responses.
         8. Control risk – use above process, update based on results, and revise.
        Source: State of Minnesota


    •   The Department of Defense requires its components to: (1) determine
        high risk areas and establish written plans for testing those areas, and
        (2) develop a written strategy for program reviews based on those risks.
        The Defense Acquisition University identifies and describes risks by
        reviewing strategic and other planning documents and communicating
        with stakeholders to assess: (a) deliverables and work processes,
        (b) milestones and schedule dates, (c) resource needs and sources, and
        (d) performance requirements.




                                     15
                                                                                 09-P-0232


         In addition, ORD could use GAO’s Internal Control Management and Evaluation
         Tool, which outlines steps for identifying, assessing, and analyzing
         internal/external risks and effects. One step to identify internal risk factors
         includes identifying “any potential risks due to a highly decentralized program
         operation” – a step relevant to ORD given its matrix organization. We believe the
         tool provides a sound starting point that offices can tailor as appropriate,
         particularly since EPA Order 1000.24 affords program managers flexibility in
         designing review strategies.

         ORD could also conduct benchmarking similar to what it did on efficiency
         measures for research organizations (see Chapter 1 “Noteworthy Achievements”).
         ORD finds these organizations more analogous to it and could ask for
         management integrity best practices these organizations apply. Also, four of eight
         federal agencies we reviewed separate FMFIA into two tracks – a program track
         and a financial track. ORD’s Administrative Efficiencies Project workgroup has
         recently considered developing a “scientific,” or programmatic, track, and ORD
         should thoroughly consider this approach.

Conclusion
         FMFIA requires federal managers to improve the accountability and effectiveness
         of federal programs and operations by establishing, assessing, correcting, and
         reporting on internal controls. Internal controls are key factors in achieving
         agency missions and program results and improving accountability. We
         recognize efforts ORD has made. However, ORD has several opportunities for
         continued improvement. Through its proposed Multi-Year Program Review
         Strategy, ORD could define elements of its training program, consider all
         performance measures and peer review results for FMFIA reporting, and
         incorporate internal control best practices. By doing this, ORD will better
         accomplish FMFIA as intended – the umbrella under which ORD should form its
         internal control framework.

Recommendations
         We recommend that the Assistant Administrator for Research and Development:

         2-1    Conduct a risk assessment using the GAO internal control standard for
                risk assessment and EPA Order 1000.24 and, based upon the results,
                develop a comprehensive risk-based program review strategy.

         2-2    Train managers and other management integrity staff on FMFIA and
                internal controls. For senior managers, offer training designed to provide
                an overall understanding on internal controls and a manager’s
                responsibilities under EPA Order 1000.24. For Management Integrity
                Coordinators, offer training designed to describe how to implement and
                report on internal controls.


                                         16
                                                                               09-P-0232




         2-3    Revise the Management Integrity Policy to include programmatic
                operations. The policy should include a role for National Program
                Directors, integrate performance measures, reference current FMFIA
                guidance, and include a training plan. The program should incorporate
                public sector best practices and a two-track approach to address
                administrative and programmatic elements.


Agency Comments and OIG Evaluation
         ORD agreed with our draft report findings and concurred with our
         recommendations. ORD noted, and we agree, that the FMFIA process is not the
         only opportunity to evaluate and report on research program performance, and
         ORD’s comments provided additional information on other activities it conducts.
         ORD included in its report comments a table listing planned corrective actions
         and completion dates to address our recommendations. We believe ORD’s
         planned corrective actions address the intent of each of our recommendations.
         Appendix C includes ORD’s full response.




                                        17
                                                                                                                                        09-P-0232



                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                              POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                            BENEFITS (in $000s)

                                                                                                                 Planned
    Rec.    Page                                                                                                Completion    Claimed    Agreed To
    No.      No.                          Subject                           Status1      Action Official           Date       Amount      Amount

    2-1      16     Conduct a risk assessment using the GAO internal          O       Assistant Administrator   September
                    control standard for risk assessment and EPA Order                  for Research and          2010
                    1000.24 and, based upon the results, develop a                         Development
                    comprehensive risk-based program review strategy.

    2-2      16     Train managers and other management integrity staff       O       Assistant Administrator    Within 12
                    on FMFIA and internal controls. For senior managers,                for Research and         months of
                    offer training designed to provide an overall                          Development            course
                    understanding on internal controls and a manager’s                                          development
                    responsibilities under EPA Order 1000.24. For
                    Management Integrity Coordinators, offer training
                    designed to describe how to implement and report on
                    internal controls.

    2-3      17     Revise the Management Integrity Policy to include         O       Assistant Administrator     January
                    programmatic operations. The policy should include a                for Research and           2010
                    role for National Program Directors, integrate                         Development
                    performance measures, reference current FMFIA
                    guidance, and include a training plan. The program
                    should incorporate public sector best practices and a
                    two-track approach to address administrative and
                    programmatic elements.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                               18
                                                                                                                   09-P-0232


                                                                                                              Appendix A

                              Organization of EPA ORD
ORD has facilities geographically located across the country, as shown in Figure A.1, with its
headquarters in Washington, DC, and main research facilities in Ohio and North Carolina.

       Figure A.1: Location of ORD Labs, Centers, and Offices
                              Corvallis, OR
       Newport, OR                                      Duluth, MN       Cincinnati, OH
                                                                                   Grosse lle, MI

                                                                                                            Narragansett, RI

                                                                                                     Edison, NJ

                                                                                                    Washington, DC

                                                                                                Research Triangle
                                                                                                    Park, NC
              Las Vegas, NV                                                                   Athens, GA


                                     Ada, OK                     Gulf Breeze, FL
       Source: ORD presentation to OIG in October 2008.



Figure A.2 depicts ORD’s matrix structure.
       Figure A.2: ORD’s Organizational Structure
                                             Assistant Administrator                                          EPA Science Advisor
             Chief of Staff              for Research and Development
                                   Deputy Assistant Administrator for Management
                                     Deputy Assistant Administrator for Science
                                                                                                         Office of the Science Advisor



            Office of              Office of              Office of                  National
           Resources               Science                Science                    Program
          Management                Policy              Information                  Directors
              and                                      Management
          Administration


         National       National          National       National Risk       National         National         National          Office of
        Exposure       Health and        Center for      Management         Center for       Homeland         Center for       Administrative
        Research      Environmental    Environmental      Research        Environmental       Security      Computational      and Research
        Laboratory       Effects        Assessment        Laboratory        Research         Research        Toxicology          Support
                        Research                                                              Center
                       Laboratory


       Source: ORD (organizational chart as of April 2009).




                                                          19
                                                                                                       09-P-0232


Descriptions of duties corresponding to ORD organizational components are in Table A.1.

Table A.1: ORD Organizational Responsibilities
 Assistant         • Signs ORD’s annual FMFIA assurance letter.
 Administrator     • Provides oversight and accountability for ORD’s management integrity program
 for Research        and internal controls over program operations and financial reporting.
 and               • Implements the internal control framework and fosters an organizational
 Development         environment that supports continuous awareness of internal controls at all levels.
 National          • Responsible for Multi-Year Plans that establish priorities and goals.
 Program           • Serve as primary contacts in PART reviews/GPRA measurement.
 Directors         • Coordinate with BOSC regarding Multi-Year Plan program peer reviews.
 Lab, Center, and  • Responsible for managing resources allocated to labs, centers, and offices to
 Office Directors    implement research in support of Multi-Year Plans.
                   • Sign annual FMFIA assurance letters for their labs, centers, and offices.
 Office of         • Conduit between ORD’s Assistant Administrator, OCFO, and ORD labs, centers,
 Resources           and offices for the assurance letter process, including developing and providing
 Management          management integrity guidance for the organization and consolidating annual
 and                 assurance letters for labs, centers, and offices into ORD’s annual letter.
 Administration
Source: ORD presentation to OIG, and OIG’s February 2009 interviews with National Program Directors.

ORD has developed numerous Multi-Year Plans to administer key research programs and outline
annual performance goals and associated measures. Multi-Year Plans provide an overview of
the direction of ORD’s research, present significant research accomplishments, and communicate
ORD's research program to stakeholders. Key research programs include:

         •     Clean Air                               •   Ecological Research
         •     Human Health                            •   Water Quality
         •     Human Health Risk Assessment            •   Global Change
         •     Drinking Water                          •   Land
         •     Pesticides and Toxic Substances
               (Safe Pesticides/Safe Products)

Several years ago, ORD began to focus on the importance of independently confirming that it
conducts the right science and does it well. Concurrently, OMB indicated, in conjunction with
PART, the importance of independent expert reviews of federal research programs. ORD
instituted BOSC reviews of its programs and aligned them to meet the structure of PART. In
2006, to improve its external review process and better ensure the relevancy and credibility of its
research programs and science, ORD developed three specific charge questions for use in
BOSC’s summary assessment of each research program’s long-term goals:

          1. Relevance: How appropriate is the research used to achieve each long-term goal?
             Is the program still asking the right questions, or have they been superseded by
             advancements in the field?
          2. Quality: How good is the technical quality of the program’s research products?
          3. Performance: How much are the program results being used by environmental
             decision-makers to inform decisions and achieve results?




                                                      20
                                                                                       09-P-0232


                                                                                   Appendix B

                 Details on Scope and Methodology
We conducted our audit to determine how ORD implements FMFIA. During our audit, we
identified concerns with ORD’s implementation of internal control standards prescribed by the
Comptroller General as required by Section 2 of FMFIA. Our findings only address ORD’s
implementation of Section 2 of FMFIA (internal control over programs), and not Section 4
(financial accounting systems) or Appendix A of OMB’s Circular A-123 (internal control over
financial reporting). Our audit focused on ORD’s headquarters office, in Washington, DC, and
its NHEERL facilities in Raleigh, North Carolina, and Corvallis and Newport, Oregon.
NHEERL is ORD’s largest laboratory in terms of its budget and number of personnel employed.

To address our first objective on whether ORD had a systematic strategy to establish, review,
and monitor internal controls, we did the following:

   •   Gathered and analyzed FMFIA regulations, policies, and guidance related to GAO’s
       Standards for Internal Control in the Federal Government, and OMB Circular A-123.
   •   Gathered and analyzed EPA and ORD policies, procedures, guidance documents, and
       budget data related to FMFIA implementation, including EPA Order 1000.24.
   •   Attended briefings by ORD managers regarding ORD’s organization, resource
       utilization, annual planning, approach to FMFIA implementation, systematic strategy for
       reviewing internal controls, near- and long-term laboratory studies, and the review
       process used by BOSC.
   •   Conducted site visits to five NHEERL facilities (three collocated in Raleigh, North
       Carolina, and one each in Corvallis and Newport, Oregon) and attended briefings on
       organization, resource utilization, annual planning, and FMFIA implementation. (Site
       visits in Raleigh also included tours of several other ORD laboratories.)
   •   Reviewed ORD’s, NHEERL’s, and ORD’s Office of Science Policy FMFIA assurance
       letters to determine whether they addressed all five GAO standards as specified in
       OCFO’s FY 2008 guidance. We also reviewed letters to determine whether ORD and
       NHEERL documented and used program review results to establish and assess the
       effectiveness of internal controls.
   •   Participated in OCFO conference calls and interviewed OCFO staff to understand the
       FMFIA process, particularly concerns regarding programmatic review elements.
   •   Interviewed ORD’s seven Management Integrity Coordinators and their supervisors, and
       ORD’s eight National Program Directors about roles and responsibilities in implementing
       ORD’s FMFIA process, focusing on FMFIA time and training requirements and needs.
   •   Developed summary working papers on each set of interviews to obtain quantitative data.
   •   Identified and analyzed program reviews of ORD research programs for FY 2007 and
       2008 to determine the extent review questions, results, and recommendations addressed
       the five GAO standards.
   •   Conducted interviews with ORD and NHEERL staff and managers on reasons for including
       and excluding certain information from the assurance letter development process.




                                               21
                                                                                      09-P-0232


To address our second objective on what ORD's internal control strategy should contain to
account for risks in meeting program goals, we did the following:

   •   Flowcharted ORD’s calendar of external reviews to determine the number of reviews
       conducted annually.
   •   Benchmarked FMFIA assurance letters and policies used by other federal agencies to
       determine best practices ORD could use in its own systematic strategy.
   •   Conducted follow-up interviews with OCFO staff on their understanding of the internal
       control review strategy as required by EPA Order 1000.24.
   •   Reviewed internal control review strategies from other EPA program offices.
   •   Benchmarked other sample risk assessment methodologies available on-line and
       reviewed how others established controls based upon the Council of Sponsoring
       Organizations requirements. We also contacted GAO for sample methodologies.
   •   Obtained and reviewed ORD’s draft strategy to determine any improvement areas and/or
       whether it affected our strategy recommendations.
   •   Determined the effect of not developing a review strategy by documenting the
       relationship between EPA Order 1000.24 and OCFO assurance letter guidance,
       determining how assurance letters could have referenced prior internal/external reviews
       to demonstrate compliance with internal control standards, and reviewing
       internal/external reviews and how ORD and NHEERL might redirect review resources.

We did not find any prior audits or evaluations of ORD’s implementation of FMFIA.




                                              22
                                                                                       09-P-0232


                                                                                   Appendix C

                  Agency Response to Draft Report
                                     September 4, 2009


MEMORANDUM


SUBJECT:      ORD Response to OIG Draft Report EPA’s Office of Research and Development
              Could Better Use the Federal Managers’ Financial Integrity Act to Improve
              Operations Project No. OA-FY08-0323

FROM:         Lek G. Kadeli/s/
              Acting Assistant Administrator (8101R)

TO:           Patrick Gilbride
              Director, Risk and Program Performance Audits (801G)

        This memorandum responds to the Office of Inspector General (OIG) draft audit report,
EPA’s Office of Research and Development Could Better Use the Federal Managers’ Financial
Integrity Act (FMFIA) to Improve Operations (Project No. OA-FY08-0323), dated August 6,
2009. The recommendations provided in the report will help the Office of Research and
Development (ORD) continue to improve its FMFIA process.

        As the scientific research and assessment arm of EPA, ORD maintains a strong
management integrity program that systematically reviews and assesses the effectiveness of
internal controls consistent with GAO Standards and OMB Circular A-123. As required by the
Federal Managers’ Financial Integrity Act (FMFIA), we annually evaluate our internal controls
over programs and administrative systems and provide assurance on the integrity of our controls.
ORD is committed to ensuring that our science is of the highest quality, our programs are
managed effectively and efficiently, and that we aggressively prevent fraud, waste, and abuse.

        In contrast to the report’s conclusion, the FMFIA process is not the only “opportunity to
evaluate and report on research program performance.” As you correctly noted in the report,
ORD has “focused on the importance of independently confirming that it conducts the right
science and does it well.” ORD instituted a strategic multi-year planning process to guide the
direction of ORD’s research to focus on EPA's highest priority needs for science and promote
coordination of research across laboratories, centers and offices to achieve its goals. ORD has
engaged other agencies and scientific experts in an effort to determine the most effective
approach(es) to evaluate and measure the efficiency of its research programs through reviews by
Board of Scientific Counselors, Science Advisory Board, and the National Academy of Sciences;
quality assurance programs, which include peer reviews and self inspections; and Government
Accountability Office and OIG audits. Thus far in FY 2009, more than 70 reviews of ORD



                                               23
                                                                                       09-P-0232


programs, functions and operations have been completed. Based on the results of these reviews,
we are continually improving the science and research we provide to the Agency.

       The OIG provides three recommendations to strengthen ORD’s FMFIA process. In
general we agree with the recommendations and I am pleased to say that ORD has been actively
working on revisions to its FMFIA process. ORD will continue to include information in its
assurance letter that it deems to be of significant importance to the Administrator. ORD remains
committed to management integrity and maintaining effective internal controls throughout our
organization.

        Attached please find: (1) our response to each of the three recommendations contained in
the draft report and 2) a summary table of ORD’s corrective actions and associated projected
completion dates. If you have any questions, please contact me or Deborah Heckman at (202)
564-7274.

Attachment

cc: Donna Vizian
    Hal Zenick
    Amy Battaglia
    Jim Morant
    Deborah Heckman




                                               24
                                                                                      09-P-0232


               ORD Response to OIG Recommendations Contained in Draft Report

                 “EPA’s Office of Research and Development Could Better Use the
                 Federal Managers’ Financial Integrity Act to Improve Operations”
                                   Project No. OA-FY08-0323
                                         August 6, 2009

Recommendation 2-1 - Conduct a risk assessment using the GAO internal control standard for
risk assessment and EPA Order 1000.24 and, based upon the results, develop a comprehensive
risk-based program review strategy.

Response: ORD generally agrees with this recommendation.

Recognizing the complexity of conducting a comprehensive risk assessment6 for a research
organization, ORD is developing an ORD-wide approach to the risk assessment. By December
2009, ORD senior leaders will be designated to serve on ORD Executive Assessment Team
(ORDEAT) to: ensure consistency in ORD’s corporate approach to internal controls; review
internal control information in order to make corporate decisions; concur on the ORD three-year
program and management review schedule; and make recommendations to the DAA for
Management and AA regarding the ORD high risk areas. By August 2010, ORD will review its
processes, test key internal controls related to ORD activities, and assess programmatic and
administrative risks. By September 2010, after completing the risk assessment activities, ORD
will revise its multi-year program review strategy as necessary.

Recommendation 2-2 - Train managers and other management integrity staff on FMFIA and
internal controls. For senior managers, offer training designed to provide an overall
understanding on internal controls and a manager’s responsibilities under EPA Order 1000.24.
For Management Integrity Coordinators, offer training designed to describe how to implement
and report on internal controls.

Response: ORD generally agrees with this recommendation.

ORD is committed to training managers and employees involved with administering ORD’s
management integrity program. However, OCFO agreed to “complete development of an
Agency-wide strategy for comprehensive, tiered FMFIA training by the end of fiscal year 2009”
in its July 16, 2009 response to the OIG draft audit report titled EPA Should Use FMFIA to
Improve Programmatic Operations (Project No. 08-FY08-0323). In order not to duplicate
OCFO’s efforts, ORD will collaborate with OCFO on developing and implementing an Agency-
wide training program which ensures compliance with FMFIA and proper reporting of internal
controls. ORD will assess the applicability of the newly developed training for senior ORD
managers and, if necessary, initiate additional course development. ORD will then ensure that
its managers and integrity staff are trained within 12 months of completion of the course
development.



6
    As defined by GAO Standards for Internal Control in The Federal Government


                                                        25
                                                                                      09-P-0232


Recommendation 2-3 - Revise the Management Integrity Policy to include programmatic
operations. The policy should include a role for National Program Directors, integrate
performance measures, reference current FMFIA guidance, and include a training plan. The
program should incorporate public sector best practices and a two-track approach to address
administrative and programmatic elements.

Response: ORD generally agrees with this recommendation.

By January 2010, ORD will revise the ORD Management Integrity Policy to include
programmatic operations, appropriate integration of performance measures and outcomes and
reference current FMFIA guidance. As recommended, ORD will devise a two-track approach to
address administrative and programmatic elements as required by GAO and Agency guidance.
The new policy will define the roles of management and will include National Program Directors
responsibilities or other matrix managers we may have in the future under ORD’s programmatic
operations. The Management Integrity Policy will reference Agency training requirements for
all managers and ORD integrity staff.




                                               26
                                                                                                         09-P-0232


                      ORD Corrective Actions and Projected Completion Dates

Rec.         OIG Recommendation                   Lead                   ORD Corrective Action                  Planned
No.                                           Responsibility                                                   Completion
                                                                                                                 Date
       Conduct a risk assessment using the      Assistant       ORD is currently finalizing a strategy that     September
       GAO internal control standard for      Administrator     examines and reports on internal controls         2010
       risk assessment and EPA Order          for Research      covering programmatic and administrative
       1000.24 and, based upon the results,        and          operations and financial activities. Once
2-1    develop a comprehensive risk-based     Development       finalized, ORD’s multi-year program
       program review strategy                                  review strategy will help ORD identify
                                                                high-risk areas, detect weaknesses and
                                                                deficiencies, and identify best practices in
                                                                our internal controls.
       Train managers and other                 Assistant                                                       Within 12
       management integrity staff on          Administrator                                                     months of
       FMFIA and internal controls. For       for Research      Collaborate with OCFO                            Course
       senior managers, offer training             and                                                         Development
       designed to provide an overall         Development
       understanding on internal controls
2-2    and a manager’s responsibilities
       under EPA Order 1000.24. For
       Management Integrity
       Coordinators, offer training
       designed to describe how to
       implement and report on internal
       controls.
       Revise the Management Integrity          Assistant       ORD will revise the ORD Management             January 2010
       Policy to include programmatic         Administrator     Integrity Policy to include programmatic
       operations. The policy should          for Research      operations, a definition of the National
       include a role for National Program         and          Program Directors’ role in the process and
       Directors, integrate performance       Development       integration of performance measures and
       measures, reference current FMFIA                        outcomes.
2-3
       guidance, and include a training
       plan. The program should
       incorporate public sector best
       practices and a two-track approach
       to address administrative and
       programmatic elements




                                                           27
                                                                              09-P-0232


                                                                            Appendix D

                                    Distribution
Office of the Administrator
Acting Assistant Administrator, Office of Research and Development
Agency Follow-up Official (CFO)
Agency Follow-up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Audit Follow-up Coordinator, Office of Research and Development
Audit Follow-up Coordinator, Office of the Chief Financial Officer
Acting Inspector General




                                             28
